           Audit Report




AUDIT REPORT
INFORMATION TECHNOLOGY: United States Department of the
Treasury’s Compliance with Section 522 of the Consolidated
Appropriations Act of 2005 (OIG-09-014)

December 3, 2008


Office of
Inspector General
Department of the Treasury
                                        DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220

                                                  December 3, 2008
     OFFICE OF
INSPECTOR GENERAL




            MEMORANDUM FOR PETER B. MCCARTHY
                           ASSISTANT SECRETARY FOR MANAGEMENT AND
                              CHIEF FINANCIAL OFFICER

                                     ELIZABETH CUFFE
                                     DEPUTY ASSISTANT SECRETARY FOR PRIVACY AND
                                        TREASURY RECORDS

            FROM:                    Joel Grover /s/
                                     Deputy Assistant Inspector General for Financial Management
                                     and IT Audits

            SUBJECT:                 Audit Report – United States Department of the Treasury’s
                                     Compliance with Section 522 of the Consolidated
                                     Appropriations Act of 2005


            The attached report presents the results of our audit of the United States Department
            of the Treasury’s (Treasury) compliance with Section 522 of the Consolidated
            Appropriations Act of 2005, as amended (Section 522) and Office of Management and
            Budget (OMB) Memorandum 07-16 (M-07-016), Safeguarding Against and Responding
            to the Breach of Personally Identifiable Information. To meet the Section 522
            requirement for a periodic Inspector General audit of the agency’s privacy program, we
            contracted with KPMG LLP, an independent certified public accounting firm. This audit
            includes the Treasury and its bureaus with the exception of the Internal Revenue
            Service (IRS). The Treasury Inspector General for Tax Administration (TIGTA)
            performed an assessment of M-07-016 compliance at the IRS as part of its annual
            FISMA evaluation 1 .

            Based on the results reported by KPMG, we determined that Treasury did not fully
            comply with Section 522 and did not comply with M-07-016. Specifically, KPMG
            reported that (1) annual congressional reporting requirements were not met, (2)



            1
              TIGTA’s annual IRS FISMA evaluation results (Audit #200820024) were included as Attachment 2 to
            the OIG report INFORMATION TECHNOLOGY: Federal Information Security Management Act Fiscal Year
            2008 Performance Audit (OIG-08-046) dated September 26, 2008
Page 2


reporting requirements to the OIG were not met, and (3) policies and procedures
required by Section 522 and OMB Memorandum 07-16 were still in draft.

If you have questions or require further information, you may contact me at (202)
927-5768, or Tram Dang at (202) 927-5171.


Attachment
            ATTACHMENT

United States Department of the Treasury’s
    Compliance with Section 522 of the
 Consolidated Appropriations Act of 2005
            December 2, 2008
United States Department of the Treasury’s
Compliance with Section 522 of the Consolidated
Appropriations Act of 2005




          Prepared for the United States Department of the Treasury
                                     Office of the Inspector General

                                           Prepared by KPMG LLP



                                               December 2, 2008
                                                     TABLE OF CONTENTS

EXECUTIVE SUMMARY .......................................................................................................................... 1
BACKGROUND .......................................................................................................................................... 4
OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................................................ 7
RESULTS ..................................................................................................................................................... 9
CONCLUSION........................................................................................................................................... 11
MANAGEMENT RESPONSE TO REPORT ............................................................................................ 12
APPENDIX I – ACRONYM LIST............................................................................................................ I-1
                                   KPMG LLP
                                   2001 M Street, NW
                                   Washington, DC 20036



EXECUTIVE SUMMARY

December 2, 2008

Joel Grover
Deputy Assistant Inspector General for Financial Management and Information Technology Audits
United States Department of the Treasury
740 15th Street NW, Suite 600
Washington, DC 20220

Dear Mr. Grover:

This report presents the results of our audit of the United States Department of the Treasury’s (Treasury)
non-Internal Revenue Service (IRS) privacy data protection program and practices, as required by Section
522 of the Transportation, Treasury, Independent Agencies, and General Government Appropriations Act,
2005, Public Law 108-447, as amended, (hereinafter referred to as Section 522). Section 522 requires the
following:

      1. Appoint a Chief Privacy Officer (CPO) to assume primary responsibility for privacy and data
         protection policy.
      2. Establish privacy and data protection procedures and policies.
      3. Prepare a written report of the use of information in an identifiable form (IIF) and privacy and
         data protection procedures to be recorded with the Inspector General (IG) to serve as a
         benchmark for the agency.
      4. Perform an independent, third-party review of the use of IIF.

      Additionally, Section 522 requires that the agency’s IG perform a periodic assessment of the
      implementation of this section. The agency IG shall report the results to the Committee on
      Appropriations of the House and Senate, the House Committee on Oversight and Government
      Reform, and the Senate Committee on Homeland Security and Government Affairs1.

Agencies were required to be compliant with Section 522 by December 8, 2005.

The Treasury Office of the Inspector General (OIG) contracted with KPMG LLP (KPMG) to conduct a
performance audit of the Treasury’s privacy program pursuant to Section 522 and Office of Management
and Budget (OMB) Memorandum 07-16, Safeguarding Against and Responding to the Breach of
Personally Identifiable Information. We conducted this performance audit in accordance with the
standards applicable to such audits contained in Generally Accepted Government Auditing Standards
(GAGAS), issued by the Comptroller General of the United States. These standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

The objective of our performance audit was to determine the effectiveness of Treasury’s privacy and data
protection programs and practices in complying with Section 522 and OMB Memorandum 07-16. The

1
    As amended in Section 742 of the Consolidated Appropriations Act, 2008, Public Law 110-161.
                                                                                                   Page 1
scope of our performance audit included reviewing program effectiveness from both a (1) top-down
department-level perspective to assess overall program management capabilities in developing and
implementing privacy requirements to be carried out by bureaus, and (2) bottom-up non-IRS Treasury
bureau-level perspective to assess the effectiveness of privacy programs implemented by bureaus for
Treasury-specific functions and applications.

During our performance audit to determine compliance with Section 522 and OMB Memorandum 07-16,
we determined that Treasury did not fully comply with Section 522 and did not comply with OMB
Memorandum 07-16. Specifically, we found that (1) annual congressional reporting requirements were
not met, (2) reporting requirements to the OIG were not met, and (3) policies and procedures required by
Section 522 and OMB Memorandum 07-16 were still in draft. Treasury should ensure that its privacy and
data protection program and practices comply with Section 522 and OMB Memorandum 07-16. Specific
areas include:

    1. Annual Congressional Reporting Requirements Were Not Met. The Treasury has not prepared
       and submitted an annual report to Congress on activities that affect privacy, including complaints
       of privacy violations, implementation of Section 522a of Title 5, 11 United States Code, internal
       controls, and other relevant matters.

    2. Reporting Requirements to the OIG Were Not Met. The Treasury did not record with the OIG
       a written report on the use of IIF, as well as its privacy and data protection policies and
       procedures.

    3. Policies and Procedures Required by Section 522 and OMB Memorandum 07-16 Were in
       Draft. Two (2) Treasury directives and policies related to the collection, use, sharing, disclosure,
       transfer, and storage of personally identifiable information (PII) were still in draft.

While several of Treasury’s policies and procedures required by Section 522 and OMB Memorandum 07-
16 were in draft at the conclusion of fieldwork, the majority of non-IRS bureaus have begun to adopt
them2. Specifically, each of the 12 non-IRS bureaus had begun performing privacy impact assessments
(PIAs) on information systems. In addition, bureaus have begun to provide training on the responsibilities
of individuals authorized to access PII. Lastly, through our limited procedures, we noted that Treasury is
adequately protecting PII on public Internet sites, intranet sites, and general support systems 3.

Overall, we determined that Treasury did not fully comply with Section 522 and did not comply with
OMB Memorandum 07-16. We are reporting exceptions with the extent policies and reporting
requirements required by Section 522 and OMB Memorandum 07-16 were not finalized. All of our
findings are included in the results section of this report, which warrants management attention and
corrective action.

This performance audit did not constitute an audit of financial statements in accordance with Government
Auditing Standards. KPMG was not engaged to, and did not, render an opinion on Treasury’s internal
controls over financial reporting or over financial management systems (for purposes of OMB Circular
Number. A-127, Financial Management Systems, July 23, 1993, as revised). KPMG cautions that

2
  An assessment of the IRS’s compliance with the provisions of Section 522 and OMB Memorandum 07-16 was
performed by Treasury Inspector General for Tax Administration (TIGTA) as part of its annual independent Federal
Information Security Management Act evaluation. See Department of the Treasury – OIG Audit Report OIG-08-
046 – Attachment 2.
3
  Our limited procedures included manual inspections of the all Treasury publicly available Internet Web sites, four
(4) judgmentally selected intranets, and one (1) judgmentally selected general support system.
                                                                                                             Page 2
projecting the results of our evaluation to future periods is subject to the risk that controls may become
inadequate because of changes in conditions or because compliance with controls may deteriorate.

Sincerely,




                                                                                                   Page 3
BACKGROUND

Enacted in December 2004, Section 522 directs agencies, including Treasury, to implement a number of
measures to protect IIF. Such measures require that agencies:

1. Appoint a CPO to assume primary responsibility for agency privacy and data protection policy.
   Specifically, Section 522 requires that the CPO:

       a. Assure that the use of technologies sustain, and do not erode, privacy protection related to the
          use, collection, and disclosure of IIF;

       b. Assure that technologies used to collect, use, store, and disclose IIF allow for continuous
          auditing of compliance with stated privacy policies and practices governing the collection, use,
          and distribution of information in the operation of the program;

       c. Assure that personal information contained in Privacy Act systems of records is handled in full
          compliance with fair information practices as defined in the Privacy Act of 1974;

       d. Evaluate legislative and regulatory proposals involving collection, use, and disclosure of
          personal information by the Federal Government;

       e. Conduct a privacy impact assessment of proposed rules of the Department on the privacy of
          IIF, including the type of PII collected and the number of people affected;

       f.   Prepare a report to Congress on an annual basis on activities of the Department that affect
            privacy, including complaints of privacy violations, implementation of section 552a of title 5,
            11 United States Code, internal controls, and other relevant matters;

       g. Ensure that the Department protects information in an identifiable form and information
          systems from unauthorized access, use, disclosure, disruption, modification, or destruction;

       h. Train and educate employees on privacy and data protection policies to promote awareness of
          and compliance with established privacy and data protection policies;

       i.   Ensure compliance with the Departments established privacy and data protection policies.

2. Establish and implement comprehensive privacy and data protection procedures governing the
   collection, use, sharing, disclosure, transfer, storage, and security of IIF relating to agency employees
   and the public. Such procedures are to be consistent with legal and regulatory guidance, including
   OMB regulations, the Privacy Act of 1974, and section 208 of the E-Government Act of 2002.

3. Perform an independent, third party review of the use of IIF.

4. Prepare a written report, signed by the CPO that provides a benchmark for the agency’s privacy
   program and describes the agency’s use of IIF, along with its privacy and data protection policies and
   procedures. The report is to be recorded with the agency IG.

5. The agency’s IG perform a periodic assessment of the implementation of Section 522. Section 522
   further requires that the agency IG shall report the results to the Committee on Appropriations of the


                                                                                                     Page 4
      House and Senate, the House Committee on Oversight and Government Reform, and the Senate
      Committee on Homeland Security and Government Affairs4.

OMB issued Memorandum 07-16 on May 22, 2007, which requires agencies to develop and implement
notification policies for the breach of PII. Agencies were required to implement these breach notification
policies by September 22, 2007. OMB Memorandum 07-16 required that the policies include existing and
new requirements for internal incident handling and reporting, external breach notification, and the
development of policies regarding the responsibilities of individuals authorized to access PII.

Treasury Mission and Organization

The Treasury operates and maintains systems that collect, process, store, and distribute mission-critical
information, such as taxpayer and bank data, in support of Treasury functions critical to the nation’s
financial infrastructure. These functions included the production of coin and currency, the disbursement
of payments to the American public, revenue collection, and the borrowing of funds necessary to run the
Federal Government. Management and performance accountability of these functions and systems are
overseen by the Treasury’s 13 operating bureaus and offices, including:

•     Alcohol and Tobacco Tax and Trade Bureau – Responsible for enforcing and administering laws
      covering the production, use, and distribution of alcohol and tobacco products. The Alcohol and
      Tobacco Tax and Trade Bureau also collects excise taxes for firearms and ammunition.
•     Bureau of Engraving and Printing – Designs and manufactures U.S. (paper) currency, many
      stamps, securities, and other official certificates and awards.
•     Bureau of the Public Debt – Borrows the money needed to operate the Federal Government. It
      administers the public debt by issuing and servicing U.S. Treasury marketable, savings, and special
      securities.
•     Community Development Financial Institution Fund – Created to expand the availability of credit,
      investment capital, and financial services in distressed urban and rural communities.
•     Departmental Offices – Primarily responsible for policy formulation. The Departmental Offices are
      composed of divisions headed by Assistant Secretaries, some of whom report to Under Secretaries.
•     Financial Crimes Enforcement Network – Supports law enforcement investigative efforts and
      fosters interagency and global cooperation against domestic and international financial crimes. It also
      provides U.S. policy makers with strategic analyses of domestic and worldwide trends and patterns.
•     Financial Management Service – Receives and disburses all public monies, maintains government
      accounts, and prepares daily and monthly reports on the status of government finances.
•     IRS – Responsible for determining, assessing, and collecting internal revenue in the United States.
•     Office of the Comptroller of the Currency – Charters, regulates, and supervises national banks to
      ensure a safe, sound, and competitive banking system that supports the citizens, communities, and
      economy of the United States.
•     OIG – Conducts and supervises audits and investigations of Treasury programs and operations. The
      OIG also keeps the Secretary and the Congress fully and currently informed about problems, abuses,
      and deficiencies in Treasury programs and operations.
•     Office of Thrift Supervision – The primary regulator of all Federal and many state-chartered thrift
      institutions, which include savings banks and savings and loan associations.
•     United States Mint – Designs and manufactures domestic, bullion, and foreign coins as well as
      commemorative medals and other numismatic items. The Mint also distributes United States coins to
      the Federal Reserve banks as well as maintains physical custody and protection of our nation’s silver
      and gold assets.

4
    As amended in Section 742 of the Consolidated Appropriations Act, 2008, Public Law 110-161.
                                                                                                      Page 5
•     TIGTA – Conducts and supervises audits and investigations of IRS programs and operations. The
      TIGTA also keeps the Secretary and the Congress fully and currently informed about problems,
      abuses, and deficiencies in IRS programs and operations.

Treasury Privacy and Data Protection Program

Treasury established a department wide privacy program to protect the PII it manages from unauthorized
use, access, disclosure, or sharing and to safeguard associated information systems from unauthorized
access, modification, disruption, or destruction. Key components of the Treasury’s privacy program
include, but are not limited to, the:

• Assistant Secretary for Management/Chief Financial Officer designated as the CPO and Senior
  Agency Official for Privacy with overall responsibilities for the program in March of 2005.
• Office of Privacy and Treasury Records (OPTR) was established on March 24, 2008 as the program
  management office that supports the Treasury CPO in developing and implementing privacy
  requirements including policies and procedures for managing and protecting PII. OPTR also provides
  privacy and data protection programs oversight of all Treasury bureaus and offices in carrying out
  directives and policies developed by OPTR. Additionally, OPTR is responsible for establishing a
  privacy awareness program disseminated to bureaus regarding Treasury employee privacy
  responsibilities. Prior to this date, the Office of the Chief Information Officer (OCIO) held these
  responsibilities. OPTR includes the Office of Privacy and Civil Liberties, Office of Disclosure
  Services, Treasury Records, Treasury Library, and the Orders and Directives Program.
• Each of the 13 Treasury bureaus has also established a bureau privacy officer5. The role of the bureau
  privacy officer is to act as a liaison between the bureau’s system owners and the OPTR and the CPO
  to ensure that privacy and data protection programs are operating effectively at the bureau level. This
  includes performance of Privacy Threshold Analysis and PIAs on all information systems. Bureau
  privacy officers work with the system owners to analyze the data being processed in the system and
  make a determination if the data contains PII.




5
    This report excludes privacy and data protection programs at IRS.
                                                                                                  Page 6
OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to determine the effectiveness of Treasury’s privacy and data protection
programs and practices in complying with Section 522 and OMB Memorandum 07-16. The scope of our
audit included reviewing program effectiveness from both a (1) top-down department level perspective to
assess overall program management capabilities in developing and implementing privacy requirements to
be carried out by bureaus, and (2) bottom-up non-IRS Treasury bureau-level perspective to assess the
effectiveness of privacy programs implemented by bureaus for Treasury-specific functions and
applications.

To accomplish our objectives, KPMG conducted interviews with appropriate Treasury officials from
OPTR and bureau-level officials to obtain an understanding of each area within the scope of the audit.
Further, we reviewed Treasury policy, directives, and guidelines relative to privacy and data protection,
selected documentation applicable to bureau-level activities performed including PIAs, and performed
procedures to identify the presence of PII on publicly accessible Internet sites, internal intranet sites, and
one (1) general support system.

Top-down Department Level Review

To determine Treasury effectiveness in establishing a privacy program for implementing privacy
requirements, KPMG reviewed privacy program management capabilities established to support the
Treasury CPO in developing and implementing privacy requirements. This included reviewing policies
directives and procedures for managing and protecting PII, a process for identifying PII in applications,
and procedures for conducting PIAs of applications and systems containing PII. KPMG also reviewed
roles, responsibilities, and the effectiveness of oversight capabilities at the department level in managing
and directing the privacy program activities performed by Treasury bureaus, and development of a
privacy awareness program.

Bottom-up Bureau Level Review

To determine effectiveness of privacy requirements carried out by Treasury bureaus from departmental
direction provided, KPMG reviewed privacy activities performed by non-IRS Treasury bureaus for
specific functions and applications, through a representative subset of 23 information systems. Our review
included an assessment of the effectiveness of privacy threshold analysis and PIAs performed on
information systems in analyzing systems for PII. Our test work also included limited procedures to
determine the presence of PII on the Treasury publicly accessible Internet, intranet, and on one (1) general
support system.

Other Considerations

KPMG performed this performance audit at Treasury’s headquarters offices in Washington, DC and
bureau locations in Washington, DC, Hyattsville, MD, McLean, VA, and Parkersburg, WV during the
period of May through September 2008. Throughout the audit, we met with Treasury management to
discuss our preliminary conclusions.

The Treasury OIG contracted with KPMG to audit Treasury’s compliance with Section 522 and OMB
Memorandum 07-16, and report on the effectiveness of Treasury’s privacy and data protection program.
KPMG conducted this performance audit in accordance with GAGAS issued by the Comptroller General
of the United States. These standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our audit


                                                                                                       Page 7
objectives. We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Applicable Criteria

KPMG’s criteria for this performance audit are based on Federal privacy and data protection criteria
established by Law and OMB.

•   Section 522, Division H of the Consolidated Appropriations Act, 2005
•   OMB Memorandum 08-21, FY 2008 Reporting Instructions for the Federal Information Security
    Management Act and Agency Privacy Management
•   OMB Memorandum 07-16, Safeguarding Against and Responding to the Breach of Personally
    Identifiable Information




                                                                                             Page 8
RESULTS

During our performance audit to determine compliance with Section 522 and OMB Memorandum 07-16,
we determined that Treasury did not fully comply with Section 522 and did not comply with OMB
Memorandum 07-16. Specifically, we found that (1) annual congressional reporting requirements were
not met, (2) reporting requirements to the OIG were not met, and (3) policies and procedures required by
Section 522 and OMB Memorandum 07-16 were not finalized. Treasury should ensure that its privacy
and data protection program and practices fully comply with applicable Congressional and OMB
requirements.

FINDINGS

   1. Annual Congressional Reporting Requirements Have Not Been Met.

       Treasury has not prepared and submitted any annual reports to Congress on activities that affect
       privacy, including complaints of privacy violations; implementation of Section 552a of Title 5, 11
       United States Code; internal controls; and other relevant matters.

       According to OPTR management, from December 8, 2004 to March 23, 2008, the OCIO held the
       responsibility for privacy and data protection, but due to limited resources the OCIO did not
       prepare and submit the annual report to Congress on activities affecting privacy. Since March 24,
       2008, OPTR had the responsibility to develop the annual report to Congress on activities
       affecting privacy, but due to competing priorities, the annual reports have not been prepared and
       submitted.

       By not submitting the report on an annual basis, Treasury is not in compliance with Section 522,
       and Congress may not be aware of the current state of the agency’s privacy-related activities. This
       could result in the inability to dedicate adequate resources to the protection of IIF.

       We recommend that OPTR management:

       1. Prepare a report to Congress on an annual basis on activities of the Treasury that affect
          privacy, including complaints of privacy violations; implementation of Section 552a of Title
          5, 11 United States Code; internal controls; and other relevant matters.

   2. Reporting Requirements to the OIG Were Not Met.

       Treasury did not record with the OIG a written report on the use of IIF, as well as its privacy and
       data protection policies and procedures.

       According to OPTR management, from December 8, 2004 to March 23, 2008, the OCIO held the
       responsibility for privacy and data protection, but due to limited resources the OCIO did not
       prepare and submit the report to the OIG on the use of IIF. Since March 24, 2008, OPTR had the
       responsibility to submit the report to the OIG on the use of IIF, but due to competing priorities,
       the reports have not been prepared and submitted.

       By not recording a report on the use of IIF, as well as the privacy and data protection policies and
       procedures with the OIG, the Treasury is not in compliance with Section 522. Furthermore,
       Treasury does not have a benchmark on its use of IIF, along with privacy and data protection
       policies and procedures.


                                                                                                    Page 9
  We recommend that OPTR management:

  2. Record a formal written report on the use of IIF, as well as privacy and data protection
     policies and procedures with the OIG.

3. Policies and Procedures Required by Section 522 and OMB Memorandum 07-16 Are in
   Draft

  Section 522 of the Consolidated Appropriations Act, 2005, issued on December 8, 2004, required
  agencies to develop policies and procedures for privacy and data protection within one (1) year of
  the law being signed. In addition, OMB Memorandum 07-16, issued on May 22, 2007, required
  that policies be developed for the PII breach notifications. OMB Memorandum 07-16 required
  that these policies and procedures be issued within 120 days after the date of the memorandum,
  September 22, 2007. To date, Treasury has only finalized Treasury Directive (TD) 25-07 Privacy
  Impact Assessment, dated August 6, 2008, and TD 25-09 Privacy and Civil Liberties Activities
  Pursuant to Section 803 of The Implementing Recommendation of the 9/11 Commission Act of
  2007, P.L. 110.53, dated September 3, 2008. However, Treasury Directive Publication 25-07
  Privacy Impact Assessment Manual and TD 25-08 Personally Identifiable Information (PII)
  Protection, Breach Response, and Notification are still in draft.

  According to OPTR management, from December 8, 2004 to March 23, 2008, the OCIO held the
  responsibility for privacy and data protection functions under Section 522. The OCIO had
  developed directives and policies in accordance with Section 522 and OMB Memorandum 07-16;
  however, the clearance process was delayed citing limited resources to complete the process and
  pending the creation of OPTR. Since its creation on March 24, 2008, OPTR has assumed the
  responsibility to review and update the content of these directives and policies and continue the
  formal clearance process.

   Without formal directives and policies related to the collection, use, sharing, disclosure, transfer,
   and storage of PII in place at the Treasury, IIF may not be adequately protected. However, the
   majority of non-IRS bureaus have begun to adopt all draft policies and procedures. Specifically,
   each of the 12 non-IRS bureaus had begun performing PIAs on information systems. In addition,
   bureaus have begun to provide training on the responsibilities of individuals authorized to access
   PII. Lastly, through our limited procedures, we noted that Treasury is adequately protecting PII
   on public Internet sites, intranet sites, and general support systems.

   We recommend that OPTR management:

  3. Finalize all of the directives and policies related to the collection, use, sharing, disclosure,
     transfer, and storage of PII identified above.




                                                                                                 Page 10
CONCLUSION

We assessed Treasury for compliance with Section 522 and OMB Memorandum 07-16. Overall, we
determined that Treasury did not fully comply with Section 522 and did not comply with OMB
Memorandum 07-16. We are reporting exceptions with the extent policies, and reporting requirements
required by Section 522 and OMB Memorandum 07-16 were not implemented. All of our findings are
included in the results section of this report, which warrants management attention and corrective action.




                                                                                                  Page 11
MANAGEMENT RESPONSE TO REPORT




                                Page 12
APPENDIX I – ACRONYM LIST
Acronym    Definition
CPO        Chief Privacy Officer
GAGAS      Generally Accepted Government Auditing Standards
IG         Inspector General
IIF        Information in an Identifiable Form
IRS        Internal Revenue Service
KPMG       KPMG LLP
OCIO       Office of the Chief Information Officer
OMB        Office of Management and Budget
OIG        Office of the Inspector General
OPTR       Office of Privacy and Treasury Records
PIA        Privacy Impact Assessment
PII        Personally Identifiable Information
TD         Treasury Directive
TIGTA      Treasury Inspector General for Tax Administration
Treasury   United States Department of the Treasury




                                                               Page I-1
